Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 1 of 11
Case: 20-10331 Date Filed: 10/01/2020 Page: 1 of 11

APPENDIX A° not publish]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10331
Non-Argument Calendar

D.C. Docket No. 4:18-cv-00191-CDL
ROBERT J. FREY,
Plaintiff-Counter Defendant-Appellant,
versus
ANTHONY BINFORD MINTER,
Defendant-Counter Claimant-Appellee,
HAROLD BLACH, JR.,
Defendant-Appellee,
HUNTON ANDREWS KURTH LLP,
Respondent.

Appeal from the United States District Court
for the Middle District of Georgia
(October 1, 2020)

la

Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 2 of 11
Case: 20-10331 Date Filed: 10/01/2020 Page: 2 of 11

Before MARTIN, JORDAN, and ROSENBAUM, Circuit Judges.
PER CURIAM:
Robert Frey, an attorney proceeding pro se, appeals the district court’s
summary judgment order dismissing his defamation action. He first argues that the
district court erred by applying Georgia law. He also contends that the district court
in the Middle District of Florida abused its discretion in transferring the action to the
Middle District of Georgia. Finally, he asserts that the district court erred in denying
his motion to remand the case to state court.
For the following reasons, we affirm.
I
This appeal involves a defamation lawsuit that Mr. Frey filed against Harold
Blach and his attorney, Anthony Minter. The parties are familiar with the procedural
history and generally agree to the underlying facts. We therefore do not recount the
story in full detail.
In short, the three men became embroiled in litigation regarding Mr. Frey’s
former client, against whom both Mr. Frey and Mr. Blach held judgments. Mr.
Blach, represented by Mr. Minter, pursued a garnishment of the client’s wages in
Georgia state court to satisfy his judgment, and Mr. Frey filed a third-party claim in
that lawsuit. The outcome of that litigation is not of concern, other than to note that
it became acrimonious and that Mr. Minter sent letters to the court and the Georgia
2

2a

Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 3 of 11
Case: 20-10331
Date Filed: 10/01/2020 Page: 3 of 11

state bar accusing Mr. Frey of fraud. Mr. Minter communicated those accusations
to a reporter for a local Georgia newspaper, who published the statements in print
and online.
Mr. Frey sued Mr. Minter and Mr. Blach in the Middle District of Florida for
defamation. He voluntarily dismissed the case after the district court ordered it
transferred to the Middle District of Georgia. Mr. Frey then brought a substantially
similar action in a Florida state court.
In the Florida lawsuit, Mr. Frey claimed that Mr. Minter’s statements to the
Georgia newspaper were defamatory per se because they involved false allegations
of civil and criminal fraud, as well as violations of the Georgia Rules of Professional
Conduct. Mr. Frey at first demanded $ 15,001 in damages but amended his complaint
to request another $10,000,000 in punitive damages. The defendants removed the
case to the Middle District of Florida based on diversity jurisdiction, and then filed
a motion to transfer to the Middle District of Georgia. The district court granted the
motion to transfer.
The transferee court in Georgia denied Mr. Frey’s motions to transfer the case
back to the Middle District of Florida and to remand. The district court also granted
in part the defendants’ Rule 12(b)(6) motion to dismiss, applying Georgia law and
concluding that Mr. Frey failed to state a claim for defamation per se but sufficiently
pled a claim for defamation per quod. The district court later granted the defendants’
3

3a

Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 4 of 11
Case: 20-10331
Date Filed: 10/01/2020 Page: 4 of 11

motion for summary judgment, concluding that Mr. Frey did not present evidence
of special damages (such as lost profits), which he was required to do for his
remaining claim of defamation per quod. Mr. Frey appealed.
II
Mr. Frey first challenges the district court’s conclusion that Georgia law
applies to his defamation claim, although it is not clear to what end. Both Florida
and Georgia require proof of special damages for a plaintiff to sustain a claim of
defamation per quod. See McGee v. Gast, 572 S.E.2d 398, 401 (Ga. Ct. App. 2002);
Tip Top Grocery Co. v. Wellner, 186 So. 219, 221 (Fla. 1938); Hoch v. Rissman,
Weisberg, Barrett, 742 So. 2d 451, 457 (Fla. Dist. Ct. App. 1999). And the district
court granted summary judgment in favor of the defendants because Mr. Frey did
not offer any evidence of special damages.
It is likely that Mr. Frey hopes to establish a conflict of law with respect to the
district court’s earlier Rule 12(b)(6) partial dismissal so that he can maintain a claim
for defamation per se under Florida law. Although he does not say this explicitly,
we will assume as much for our analysis. And although Mr. Frey designated only
the final judgment in his notice of appeal, we still have jurisdiction to review the
non-final order granting in part and denying in part the motion to dismiss. See Auto.
Alignment & Body Serv., Inc. v. State Farm Mut. Auto. Ins. Co., 953 F.3d 707, 72425 (11th Cir. 2020) (“[Wjhen a notice of appeal designates the final, appealable
4

4a

Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 5 of 11
Case: 20-10331 Date Filed: 10/01/2020 Page: 5 of 11

order—and does not identify specific parts of that order for appeal-—we have
jurisdiction to review that order and any earlier interlocutory orders that produced
the judgment.”). That does not change the outcome, however, because we conclude
that the district court correctly applied Georgia law.
We review a choice-of-law determination de novo and any underlying factual
findings for clear error. See Grupo Televisa, S.A. v. Telemundo Commc'ns Grp.,
Inc., 485 F.3d 1233, 1239 (11th Cir. 2007). Neither party disputes that Florida
choice-of-law rules govern, as the case was transferred from the Middle District of
Florida. See Boardman Petroleum, Inc. v. FederatedMut. Ins. Co., 135 F.3d 750,
752 (11th Cir. 1998) (explaining that “[fjederal courts sitting in diversity apply the
forum state’s choice-of-law rules” and that when a case is transferred, “the transferor
court’s choice-of-law rules apply”).
Florida resolves conflict-of-laws questions for torts using the “significant
relationships test” as set forth in the Restatement (Second) of Conflict of Laws. See
Bishop v. Fla. Specialty Paint Co., 389 So. 2d 999, 1001 (Fla. 1980). When
determining the state that has the most significant relationship to the events and the
parties, courts consider “(a) the place where the injury occurred, (b) the place where
the conduct causing the injury occurred, (c) the domicil, residence, nationality, place
of incorporation and place of business of the parties, and (d) the place where the
relationship, if any, between the parties is centered.” Restatement (Second) of
5
5a

Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 6 of 11
Case: 20-10331
Date Filed: 10/01/2020 Page: 6 of 11

Conflict of Laws § 145 (“The General Principle”). See also Michel v. NYP Holdings,
Inc., 816 F.3d 686, 694 (11th Cir. 2016). “These factors are considered according
to their relative importance with respect to the particular issue.” Michel, 816 F.3d
at 694 (internal quotation marks omitted).
The Restatement also includes a section on multistate defamation cases, which
provides that the “state of most significant relationship will usually be the state
where the person was domiciled at the time, if the matter complained of was
published in that state.” Restatement (Second) of Conflict of Laws § 150. Even if
“some or all of the defamer’s acts of communication were done in another state, if
there was publication in the state of plaintiffs domicil and if the plaintiff is known
only in this state and consequently his reputation only suffered injury there,” the law
of the plaintiffs domicile will usually be applied. See id. cmt. e.
That section and comment would appear at first glance to support the
application of Florida law in this case. Mr. Frey’s injury occurred in part in Florida,
where he resides, and the article was available in Florida via the internet. The
comment further provides, however, that in multistate defamation cases, the state of
the plaintiffs domicile is not necessarily the state of most significant relationship “if
one of the other states [in which the defamatory statement was published] has a more

1 For quotations to the Restatement, we leave in place its archaic spelling of the word “domicil.”
Everywhere else, we use the modem version, “domicile.”
6
6a

Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 7 of 11
Case: 20-10331 Date Filed: 10/01/2020 Page: 7 of 11

significant relationship to the occurrence and the parties.” Id. This may be the case
where (1) the plaintiff is better known in that state than the state of his domicile; (2)
the statement was “related to an activity of the plaintiff that is principally located in
[that] state,” (3) “the plaintiff suffered greater special damages in [that] state than in
the state of his domicil,” or (4) the statement’s place of principal circulation was in
the non-domicile state. See id. See also Michel, 816 F.3d at 694.
This paradigm more accurately describes the situation here, particularly with
respect to the second and fourth factors. The allegedly defamatory statements were
about Mr. Frey’s conduct in Georgia state court proceedings. And even though the
statements were published online and therefore available in Florida, the print
circulation was primarily in Georgia.
With those multistate defamation principles in mind, we return to the four
factors and the general principles of § 145 of the Restatement. Relevant to the first
factor—the location where the injury occurred—Mr. Frey is licensed to practice law
in Georgia, but he lives and maintains his law office in Florida, and he represents
both Florida and Georgia citizens in matters involving Georgia or federal law. Based
on those facts, it is not entirely clear where Mr. Frey’s injury occurred. But we will
assume—as did the district court—that the first factor weighs in favor of Florida
law.

7

7a

Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 8 of 11
Case: 20-10331
Date Filed: 10/01/2020 Page: 8 of 11

Even with that point going to Mr. Frey, the others are a wash or heavily favor
the application of Georgia law. As for the second factor, the conduct causing the
injury occurred in Georgia because the statements were made in Georgia by a
Georgia resident and, again, the local newspaper’s principal circulation is in
Georgia. As to the third factor—the residence of the parties—Mr. Frey is a Florida
resident, but Mr. Minter resides in Georgia and Mr. Blach resides in Alabama. This
factor is a tie at best. In any event, the residency factor carries less weight here
because the issues and circumstances of this case are centered in Georgia. See
Michel, 816 F.3d at 694; Restatement (Second) of Conflict ofLaws § 150 cmt. e. It
is also less important given that Mr. Frey has demonstrated his willingness and
ability to travel to the Middle District of Georgia, as he represents clients and has
recently appeared in cases there. The fourth factor weighs heavily in favor of
Georgia law because the parties’ relationship is centered around the litigation that
took place in Georgia.
Weighing the relevant factors, while also keeping in mind the principles
specific to multistate defamation, we conclude that Georgia has the most significant
relationship to this case. The district court therefore correctly applied Georgia law.
Ill
Mr. Frey’s arguments attacking the transfer under 29 U.S.C. § 1404(a) are
moot. Whether the case had proceeded in the Middle District of Florida or in the
8

8a

Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 9 of 11
Case: 20-10331 Date Filed: 10/01/2020 Page; 9 of 11

Middle District of Georgia, Florida choice-of-law rules would still govern, Georgia
law would still apply, and Mr. Frey’s defamation claim would still fail on the merits.
The transferor court, in any event, did not abuse its discretion in transferring
the case, and the transferee court did not err in declining to send it back. A case may
be transferred to a district in which a civil action “might have been brought.”
§ 1404(a). A civil action may be brought in “a judicial district in which a substantial
part of the events or omissions giving rise to the claim occurred.” 28 U.S.C.
§ 1391(b)(2). Here, events giving rise to Mr. Frey’s claim occurred in the Middle
District of Georgia, which was therefore a permissible transferee venue.
Mr. Frey’s arguments fail to show an abuse of discretion by the transferor
court. Courts consider numerous factors in determining whether to transfer a case
under § 1404(a):
(1) the convenience of the witnesses; (2) the location of relevant
documents and the relative ease of access to sources of proof; (3) the
convenience of the parties; (4) the locus of operative facts; (5) the
availability of process to compel the attendance of unwilling witnesses;
(6) the relative means of the parties; (7) a forum’s familiarity with the
governing law; (8) the weight accorded a plaintiffs choice of forum;
and (9) trial efficiency and the interests of justice, based on the totality
of the circumstances.
Manuel v. Convergys Corp., 430 F.3d 1132, 1135 n.l (11th Cir. 2005). Many of
these factors clearly weigh in favor of transfer here. The allegedly defamatory
statements were published in Georgia and the events giving rise to those statements
occurred in Georgia. Mr. Frey demonstrated that he is willing and able to travel to
9
9a

Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 10 of 11
Case: 20-10331 Date Filed: 10/01/2020 Page: 10 of 11

Georgia because he appeared in Georgia courts leading up to this case. And, notably,
a court in the Middle District of Florida previously transferred a substantially similar
case, which Mr. Frey voluntarily dismissed to file this action.
IV
We finally address the district court’s denial of Mr. Frey’s motion to remand.
We review that decision de novo. See City ofVestavia Hills v. Gen. Fid. Ins. Co.,
676 F.3d 1310, 1313 (11th Cir. 2012).
A notice of removal of a civil action must be filed within 30 days of the
defendant’s receipt of the initial pleading. See 28 U.S.C. § 1446(b)(1). When the
initial pleading is not removable, however, a notice of removal may be filed within
30 days of the defendant receiving “a copy of an amended pleading, motion, order
or other paper from which it may first be ascertained that the case is one which is or
has become removable.” Id. § 1446(b)(3).
Litigating on the merits, or “taking some substantial offensive or defensive
action in the state court action,” waives a defendant’s right to remove a state court
action to federal court. See Yusefzadeh v. Nelson, Mullins, Riley & Scarborough,
LLP, 365 F.3d 1244,1246 (11th Cir. 2004) (internal quotation marks omitted). This
type of waiver is case-specific. See id. “[T]he filing of a motion to dismiss in and
of itself does not necessarily constitute a waiver of the defendant’s right to proceed
in the federal forum.” Id. (internal quotation marks omitted).
10
10a

Case 4:18-cv-00191-CDL Document 126 Filed 10/01/20 Page 11 of 11
Case; 20-10331 Date Filed: 10/01/2020 Page; 11 of 11

The district court correctly denied Mr. Frey’s motion to remand.

The

defendants litigated the motion to dismiss in state court, but only during a time when
they could not have known that the case was removable. The defendants propounded
jurisdictional interrogatories to Mr. Frey, but his responses were vague and did not
state that he was seeking damages above the federal amount-in-controversy
requirement. See 28 U.S.C. § 1332.

Mr. Frey responded only that he sought

“compensatory damages and undetermined punitive damages in such sum as a jury
finds just and proper” and that he would not “speculate as to the amount of damages
that may be awarded.” It was only from Mr. Frey’s amended complaint—and his
$10,000,000 request for punitive damages—that the defendants were able to
ascertain that diversity jurisdiction existed. The defendants did not waive their
ability to remove because, up until that point, Mr. Frey obscured the factual basis for
removal. The defendants submitted their notice of removal within 30 days of Mr.
Frey filing his amended complaint.
V
For the foregoing reasons, we affirm the judgment of the district court.
AFFIRMED.

11
11a

Case 4:18-cv-00191-CDL Document 64 Filed 02/28/19 Page 1 of 2
Case: 19-10026 Date Filed: 02/28/2019 Page: 1 of 2

APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10026-AA
ROBERT J. FREY,
Plaintiff-Counter Defendant-Appellant,
versus
A. BINFORD MINTER,
Defendant-Counter Claimant-Appellant,
HAROLD BLACH, JR.,
Defendant-Appellee.

Appeals from the United States District Court
for the Middle District of Georgia
Before: WILLIAM PRYOR, MARTIN and ROSENBAUM, Circuit Judges,
BY THE COURT:
This appeal is DISMISSED, sua sponte, for lack ofjurisdiction.
Robert J. Frey filed the instant notice of appeal from the district court’s order applying
Georgia law to Frey’s claims, granting in part and denying in part the defendants* motion to
dismiss, denying the defendants’ motion for reconsideration ofa state court order as moot, denying
Frey’s motion to remand, and denying Frey’s motion to retransfer the case back to the U.S. District
Court for the Middle District of Florida. Because the order did not end the case on the merits, it
was not final. See CSX Transp., Inc. v. City ofGarden City, 235 F.3d 1325,1327(11th Cir. 2000)

12a

Case 4:18-cv-00191-CDL Document 64 Filed 02/28/19 Page 2 of 2
Case: 19-10026 Date Filed: 02/28/2019 Page: 2 of 2
(noting that a final order ends the case on the merits and leaves nothing for the court to do but
execute the judgment). And the district court did not certify a judgment under Federal Rule of
Civil Procedure 54(b), so the dismissal of some but not all of the claims was not immediately
appealable. See Fed. R, Civ. P. 54(b); Supreme Fuels Trading FZE v. Sargeant, 689 F.3d 1244,
1246 (11th Cir. 2012) (stating that an order that disposes offewer than all of the claims against all
of the parties to an action is not final and appealable, unless the district court certifies the order for
immediate review pursuant to Rule 54(b)). Accordingly, we lack jurisdiction over this appeal.
See 28 U.S.C. § 1291; CSXTransp., Inc., 235 F.3d at 1327 (noting that we have jurisdiction over
orders that are final or interlocutory orders that are appealable under a statute or jurisprudential
exception); Woodardv. STPCorp., 170F.3d 1043,1044 (11th Cir. 1999) (concluding that an order
denying a motion to remand is not immediately appealable); Roofing & Sheet Metal Servs., Inc. v.
La Quinta Motor Inns, Inc., 689 F.2d 982,988 (11th Cir. 1982) (stating that, in cases where the
district court denies transfer or orders an intracircuit transfer, “appellate jurisdiction to review the
district court’s order is preserved on appeal from final judgment”).
Any outstanding motions are DENIED as moot. No motion for reconsideration may be
filed unless it complies with the timing and other requirements of 11th Cir. R. 27-2 and all other
applicable rules.

2

13a

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 1 of 13

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
COLUMBUS DIVISION
ROBERT J. FREY,

★

Plaintiff,

*

vs.

★

ANTHONY BINFORD MINTER and
HAROLD BLACH, JR.,

★

CASE NO. 4:18-CV-191 (CDL)
★

Defendants.
*

ORDER
This action involves allegations of defamation and assault
by

opposing

slandered
opposing
fraud

counsel.

and

libeled

counsel

to

a

Robert

in

him

when

another

newspaper

accusatory statements.

J.

Frey

Anthony

action,

reporter

claims

Binford

falsely

whose

that

Defendants

Minter,

accused

newspaper

his

Frey

published

of
the

Frey also asserts that Minter and his

client Harold Blach engaged in defamation through pleadings by
repeating the accusatory statements in filings before this Court
and that Minter assaulted him along the way.
counterclaim
defamatory
parties'

against

statements

motions

for

Frey,
about

alleging
him.

summary

denies

Frey's

partial

that

Frey

published

Presently pending

judgment

leave to amend his complaint.

Minter brought a

and

Frey's

are

the

motion

for

As discussed below,

summary

judgment

14a

motion

(ECF

the Court
No.

85),

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 2 of 13

grants

Defendants'

summary

judgment

motion

{ECF No.

84),

and

denies Frey's motion for leave to amend (ECF No. 90).
DISCUSSION
I.

Motions for Summary Judgment
Frey seeks partial summary judgment on certain elements of

his

defamation claims.

matter

of

law,

that

He

asks

Defendants'

defamatory and that Defendants'
Defendants,

the

on the other hand,

Court

to conclude,

statements

were

as

false

a

and

claims of privilege lack merit.
seek summary judgment on all of

Frey's claims.
A.

Summary Judgment Standard

Summary judgment may be granted only "if the movant shows
that there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law."
Civ.

P. 56(a).

material

In

determining

whether

a

genuine

Fed.

R.

dispute

of

fact exists to defeat a motion for summary judgment,

the evidence is viewed in the light most favorable to the party
opposing summary judgment, drawing all justifiable inferences in
the opposing party's favor.
477 U.S. 242, 255 (1986).

Anderson v.

Liberty Lobby,

Inc. ,

A fact is material if it is relevant

or necessary to the outcome of the suit.

Id. at 248.

A factual

dispute is genuine if the evidence would allow a reasonable jury
to return a verdict for the nonmoving party.

2

15a

Id.

Case 4:18-cv-00191-CDL Document 104 Fiied 08/29/19 Page 3 of 13

B.

Factual Background

Blach,

who

is

represented

by

judgment against Sal Diaz-Verson,
Frey,

collect since 2012.

Minter,

held

an

Alabama

which he has been trying to

who is Diaz-Verson's former lawyer,

also held a judgment against Diaz-Verson for unpaid legal fees
that Diaz-Verson owed him.
material
Judgment
relevant.
Court,
Loan

facts

Neither party's present statement of

squarely addresses

against

Diaz-Verson,

the
but

circumstances
the

of

Frey's

circumstances

are

Based on the record in a separate action before this

Frey's judgment was originally obtained by Porter Bridge
Company against

4:15-MC-5,

2017

WL

Blach

Diaz-Verson.
1854675,

at

*2

(M.D.

v.
Ga.

Diaz-Verson,
May

8,

No.

2017).

After Diaz-Verson paid part of the judgment's balance to achieve
a

settlement

with

Porter

Bridge,

assigned

the

unsatisfied balance of the judgment to Frey in late 2012,

and

Frey recorded it in Harris County, Georgia in early 2013.

Id.

The assignment was meant to

secure

Porter

Frey's

Bridge

right

to collect

a

portion of the unpaid legal fees that Diaz-Verson owed to Frey.
Id.
Diaz-Verson's former employer,

AFLAC Inc.,

makes bimonthly

payments to Diaz-Verson, twenty-five percent of which is subject
to garnishment.

In 2015, Blach registered his Alabama judgment

in Georgia and began filing garnishment actions against DiazVerson in this

Court and in other Georgia courts,

3

16a

seeking to

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 4 of 13

garnish the AFLAC payments.
those garnishment actions,

Frey filed third-party claims

in

arguing that he had a judgment that

was superior to Blach's.
Blach, represented by Minter, argued that the assignment of
the Porter Bridge Judgment to Frey was a fraudulent transaction.1
In August 2016, Minter provided Daily Report reporter Greg Land
an

official

statement

against Diaz-Verson.

about

Blach's

garnishment

proceeding

The Daily Report published the following

statements:
♦ Minter "claims that he's being blocked from collecting [a
judgment for his client] by [Frey], who holds a years-old
judgment [Diaz-Verson]
♦ "According to Minter, Frey apparently has no intention of
collecting on the $300,000 judgment but is using it to
block anyone else's efforts to target his ex-client's
funds."
♦ Minter
said,
"I'm
arguing
that
it's
a
fraudulent
arrangement; impermissible, unethical, and void."
♦ Minter also said, "If this is permissible, any debtor could
evade future creditors by arranging, under confidential
terms, for an existing judgment debt to be assigned to his
own attorney. The debtor's attorney could keep doing legal
work to ensure the old judgment debt never gets paid, but
then deny other would-be garnishors based on his 'owing' a
prior judgment."

1 The Court later rejected that argument, twice, because Blach did not
point to evidence from which a reasonable juror could conclude that
the assignment was voidable as a fraudulent transaction under the
Blach v.
Georgia Uniform Voidable Transfers Act, O.C.G.A. § 18-2-74.
Diaz-Verson, No. 4:15-MC-5, 2017 WL 1854675, at *5 (M.D. Ga. May 8,
2017); Blach v. Diaz-Verson, No. 4:15-MC-5, 2018 WL 1321038, at *3
(M.D. Ga. Mar. 14, 2018), modified on other grounds in 2018 WL 1598665
(M.D. Ga. Apr. 2, 2018).
4

17a

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 5 of 13

Pl.'s Aff.

Ex.

B,

Greg Land,

Garnishment Action Accuses Lawyer

of Using Unpaid Judgment to Block Debt Collection, Daily Report,
Aug. 19, 2016, ECF No. 1-2 at 220-23.
C.
Frey

Frey's Defamation Claims
seeks

defamation

summary

claims

and

judgment
on

on

certain

Defendants'

Specifically, he asks the Court to decide,
that

Minter's

statements

to

Daily Report

elements

privilege

of

his

defense.

as a matter of law,
reporter Greg

Land,

which were later published in the Daily Report,

were false and

defamed Frey.

as a matter of

He also asks the Court to decide,

law, that two 2018 filings Minter made on behalf of Blach in the
garnishment

action were

privileged under O.C.G.A.

false

and defamed

§ 51-5-9.2

Frey

and were

not

Frey argues that the only

fact issue remaining on his defamation claims is the issue of
damages.

Defendants argue

that

they are

entitled to

summary

2 Frey added the "defamation through pleadings" claim in his second
amended complaint, which he filed after the close of discovery on
Pl.'s 2d Am. Compl.
64-73, ECF No. 78.
It is
April 20, 2019.
based on statements in Blach's February 24, 2018 response to Frey's
motion for disbursement of funds (ECF No. 315 in 4:15-mc-5) and
Blach's March 1, 2018 motion for disbursement of funds (ECF No. 316 in
4:15-mc-5).
These statements repeat Defendants' argument that Minter
previously made to the Daily Report: Frey on one occasion structured
the assignment of a judgment against his former client in an improper
way, then used the judgment to protect his former client from other
judgment holders.
Although Frey alleged in his first amended
complaint that the February 24, 2018 response brief evidenced
"continued defamation," Am. Compl. f 72, ECF No. 2, he did not seek
leave to file a supplemental pleading based on the two 2018 filings.
See Fla. R. Civ. P. 1.190(d) (requiring leave of court to file a
supplemental pleading setting out events that happened after the date
of the pleading to be supplemented); accord Fed. R. Civ. P. 15(d)
(same) .
Even if the claim were properly before the Court, it would
fail for lack of special damages, as discussed below.
5

18a

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 6 of 13

judgment

on

Frey's

defamation

claims

because,

among

other

things, Frey has not presented any evidence of special damages.
"To establish a cause of action for defamation, a plaintiff
must

submit

about

evidence

himself;

party;

(3)

(2)

an

fault

negligence;

of

the

(4)

S.E.2d

Meredith

672,

676

Corp.,

667

false and defamatory statement

r n

(Ga.

communication

defendant

special

'injurious on their face.
708

a

unprivileged

by

and

(1)

amounting

damages
Chaney v.

Ct.

S.E.2d

App.

716,

to

or

third

least

defamatory

Ct.

LLC,

Lewis

(quoting

(Ga.

to

words

Harrison & Lynam,

2011)

718

at

a

App.

v.

2008)).

Defamatory words that are "injurious on their face" without the
aid of
Smith

extrinsic
v.

proof

Stewart,

660

(quoting Zarach v.

are

actionable

S.E.2d

822,

as

831

defamation
(Ga.

Atlanta Claims Ass'n,

Ct.

per

App.

2008)

500 S.E.2d 1,

Ct. App. 1998); see also Cottrell v. Smith,

se.

5

(Ga.

788 S.E.2d 772, 781

(noting that the "categories of slander have been engrafted into
the libel statute,
the

first

three

with the result that libel in the nature of
categories

of

slander"

is

libel

"carries with it the inference of damages") .
defamation

per

se,

a

plaintiff

cannot

S.E.2d 398, 401
in

favor of

special

the

damages

(Ga. Ct. App. 2002)
defendant where
or

produce

19a

and

a

claim

for

McGee v. Gast,

572

(affirming summary judgment

the plaintiff

evidence

6

se

Absent proof of

state

defamation without proving special damages.

per

that

did not

special

plead

damages

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 7 of 13

resulted

from

the

defendant's

accord O.C.G.A. § 51-5-4(b)

allegedly

defamatory

words);

(stating that unless slander or oral

defamation falls within one of the three categories that Georgia
recognizes as slander per se,

"special damage is essential to

support an action").
Frey contends that he may recover general damages on his
defamation claim, arguing that "[t]he tortious act of defamation
causes a plaintiff to suffer
'presumed damages.
ECF No.

92.

r tr

But,

'general damages'

sometimes called

Pl.'s Resp. to Def.'s Mot. for Summ. J. 4,
as discussed above,

Frey must have a valid

claim of defamation per se to be entitled to general damages.
The Court previously concluded that Frey did not state a claim
for defamation per se.3
2018) ,
Frey

ECF No.
must

defamatory

50.

Order on Mot.

Thus,

establish
statements

not

to Dismiss 14

(Dec.

4,

to prevail on his defamation claims,
only

about

that

him

but

Minter

made

unprivileged

also

that

he

special damages as a result of those statements.

suffered

"The special

damages required to support an action for defamation, when the
3 The Court made this ruling based on the allegations in Frey's
original complaint as supplemented by his first amended complaint (ECF
No. 1-1 & ECF No. 2) .
Frey did not attempt to assert a claim for
Even if he had,
defamation per se in his second amended complaint,
the Court granted Frey permission to amend his complaint after the
close of discovery because his original complaint contained references
to Florida law and he wished to incorporate provisions of Georgia law
given the Court's ruling that Georgia law applies to his defamation
claim. Text Order (Mar. 6, 2019), ECF No. 69.
Frey did not request,
leave
to
add
additional factual
and the Court did not grant,
He was also not granted leave to
allegations or causes of action,
attempt to resurrect claims that were previously dismissed.
7

20a

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 8 of 13

words themselves are not actionable, must be the loss of money
or

some

other

material

temporal

assessed in monetary value."

advantage

McGee,

capable

of

being

572 S.E.2d at 401.

"The

loss of income, of profits, and even of gratuitous entertainment
and hospitality will be special damage if the plaintiff can show
that

it

omitted)

was

caused by

the

(quoting Webster v.

defendant's
Wilkins,

words."

Id.

(emphasis

456 S.E.2d 699,

701

(Ga.

Ct. App. 1995)).
Though the Court found at the motion to dismiss stage that
Frey

adequately

judgment

on

this
See

damages.

alleged

special

ground he

McGee,

572

damages,

to

present

evidence

must
S.E.2d

at

401

survive

summary

of

special

(af firming

summary

judgment in favor of the defendant where the plaintiff did not
plead special damages or produce evidence that special damages
resulted from the defendant's allegedly defamatory words).

Frey

did not do so.

In fact, Frey did not produce any computation of

damages

discovery

during

judgment motion.
failure

to

or

in

response

to

Minter's

summary

Minter filed a motion to sanction Frey for his

supplement

computation of damages.

his

initial

disclosures

to

provide

a

The Court ordered Frey to show cause by

July 3, 2019 why he should not be sanctioned for his failure to
provide a computation of damages.
No.

88.

Order 8

In response to the Court's order,

(June 12, 2019), ECF
Frey stated that he

was "not seeking more than 'compensatory damages'

8

21a

and 'punitive

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 9 of 13

damage.

r «

Pl.'s

Resp.

to

Court

Order

2,

ECF No.

93.

Frey

further stated that the "compensatory damages" he seeks are "the
standard general defamatory damages for loss to reputation, pain
and

suffering

Plaintiff

to

and

emotional

'calculate'

distress,

and disclose"

none

of

which

require

specific amounts.

Id.

Again, because he does not have a claim for libel or slander per
se,

Frey is not entitled to recover general damages.

prove special damages,

He must

such as lost income or profits.

Given

that Frey did not produce any evidence of special damages caused
by Minter's allegedly defamatory statements—and apparently does
not even intend to seek such damages—Defendants are entitled to
summary judgment on Frey's defamation claims.
that

Defendants

are

entitled

to

summary

Having concluded

judgment

on

Frey's

defamation claims based on his failure to present evidence of
special damages, the Court need not address whether Frey proved,
as

a

matter

unprivileged,

of
false,

law,

that

Defendants'

and defamatory.

statements

Accordingly,

were

his motion

for partial summary judgment is denied.
D.

Frey's Assault Claim

In addition to his defamation claims,
Minter

is

liable

for

civil

assault

Frey contends

based

on

an

that

alleged

altercation that happened on November 17, 2017, after Frey filed
this action.

Minter seeks summary judgment on Frey's assault

claim because Frey never sought leave to add such a claim.

9

22a

Frey

Case 4;18-cv-00191-CDL Document 104 Filed 08/29/19 Page 10 of 13

did

not

state

complaint

a

because

claim
the

for

civil

alleged

assault

assault

had

in

his

not

yet

original
happened.

Frey did allege facts regarding the alleged assault in his first
amended complaint that he filed in the Florida state court on
July 2,

2018.

See Am.

Compl.

% 67,

ECF No.

2

(alleging that

Winter "made a veiled threat of death" to Frey).
not add a claim for assault at that time.

But,

Rather,

he did

he stated

that the new allegations were evidence of Defendants' "continued
defamation with animus
Resp. to Defs.' Mot.

and malice."

for Summ. J.

10,

at

1;

accord Pi.' s

ECF No.

92

(stating that

Id.

Frey did not believe that he had legal grounds to add a civil
assault claim against Minter while this action was pending in
Florida).

Furthermore,

the

Florida Rules of

Civil

Procedure,

like Federal Rule of Civil Procedure 15(d), require leave of the
"to

court

serve

a

supplemental

pleading

setting

forth

transactions or occurrences or events which have happened since
the date of the pleading sought to be supplemented."
Civ.

P.

1.190(d);

accord Fed.

R.

Civ.

P.

15(d).

seek or receive leave to add an assault claim.

Fla.

R.

Frey did not
Therefore, any

civil assault claim was not properly added when Frey filed his
first amended complaint,

and Minter was not on notice based on

the first amended complaint that Frey intended to pursue a civil
assault claim against him.

10

23a

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 11 of 13

Frey also did not seek leave to add an assault claim when
he

asked

complaint.

this

Court

for

leave

to

file

a

second

A month before the close of discovery,

amended

Frey sought

permission to amend his complaint because his original complaint
contained references to Florida law and he wished to incorporate
provisions of Georgia law given the Court's ruling that Georgia
law applies to his defamation claims.
1,

ECF No.

55.

Mot.

for Leave to Amend

Nothing in Frey's motion suggested that Frey

wished to add a new claim for civil assault.

Given the Court's

understanding that Frey merely wished to replace his references
to Florida law with references to Georgia law, the Court granted
Frey's motion for leave to amend the complaint.4

Frey did not

clearly request, and the Court certainly did not grant, leave to
add an additional cause of action.

Since neither the Florida

state court nor this Court granted Frey leave to add a civil
assault claim,

the civil assault claim asserted in Frey's post­

discovery second amended complaint

is not properly before the

Court, and it is dismissed without prejudice.

4 Shortly after Frey filed the motion, he appealed the Court's order
that denied his motion to remand, denied his motion to transfer, and
The Court deferred
granted in part Defendants' motion to dismiss,
ruling on Frey's motion for leave to amend until after the Eleventh
Circuit issued its mandate dismissing the appeal for lack of
jurisdiction,
By that time, discovery had closed, and the parties
agreed that no additional discovery was needed.
11

24a

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 12 of 13

II.

Plaintiff's Motion for Leave to Amend Complaint
Nine months after the deadline for joining parties,

five months after the close of discovery,

nearly

two months after the

deadline for Plaintiff to file a second amended complaint,
two weeks after the dispositive motion deadline,

and

Frey filed a

motion for leave to file a third amended complaint.

This time,

Frey wishes to amend the complaint to add Minter's former law
firm,

Wagner,

Johnston

&

Rosenthal,

P.C.,

Count II of his second amended complaint.

as

a

Defendant

on

Even if Count II had

been properly added as a supplemental pleading and even if the
Court had not dismissed all of Frey's defamation claims based on
his

failure to produce evidence of special damages,

would deny this motion.

Frey knew or should have known that

Minter began working at Wagner,
2017.
166

Johnston & Rosenthal

See Notice of Change of Address
in

4:15-mc-5

including
before

Frey).

then,

(Mar.

7,

(sent

via

email

to

all

Frey

also

knew

or

should

Minter

was

the Court

a

solo

called A. Binford Minter, LLC.

2017), ECF No.

case

participants,

have

practitioner

in early

known

whose

firm

that
was

See Certificate of Service (Feb.

19, 2017), ECF No. 158 at 3 in 4:15-mc-5 (sent via email to all
case participants,

including Frey).

Frey offered no good cause

why he did not seek to add Wagner, Johnston & Rosenthal, P.C. as
a

Defendant

by

the

deadline

set

12

25a

in

the

scheduling

order.

Case 4:18-cv-00191-CDL Document 104 Filed 08/29/19 Page 13 of 13

Accordingly,

his motion for leave to amend the complaint

(ECF

No. 90) is denied.
CONCLUSION
As discussed above, the Court denies Frey's partial summary
judgment

motion

(ECF

No.

85),

grants

Defendants'

summary

judgment motion (ECF No. 84), and denies Frey's motion for leave
to amend

{ECF No.

Minter's

counterclaim

Frey did not seek summary judgment on

90).

pending for trial.5

for

defamation,

so

that

claim

remains

The Court plans to hold the trial during the

Court's next Columbus civil trial term in March 2020.
Minter's

second motion

pending before the Court.
Order,

Minter

shall

to

compel

(ECF No.

95)

is

still

Within seven days of the date of this

notify

the

Court

whether

pursue the motion in light of today's ruling.

he

intends

to

If Minter does

not withdraw the motion, he shall articulate why the information
sought is relevant to his counterclaim.
IT IS SO ORDERED, this 29th day of August, 2019.
S/Clay D. Land
CLAY D. LAND
CHIEF U.S. DISTRICT COURT JUDGE
MIDDLE DISTRICT OF GEORGIA

5 Minter's counterclaim is a permissive counterclaim under Federal Rule
of Civil Procedure 13 (b) because it does not arise out of the same
transaction or occurrence as Frey's claim,
Instead, Minter's
counterclaim arises out of allegedly defamatory statements that Frey
made about Minter to others.
There is complete diversity among the
parties, and Minter seeks $50,000 in compensatory damages and $250,000
in punitive damages,
so it appears there is an independent
jurisdictional basis to adjudicate the counterclaim.
13

26a

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 1 of 17

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
COLUMBUS DIVISION
ROBERT J. FREY,

k

Plaintiff,

*

vs.

*

ANTHONY BINFORD MINTER and
HAROLD BLACH, JR.,

k

CASE NO. 4:18-CV-191 (CDL)

k

Defendants.
k

ORDER
Robert J. Frey filed this defamation action against Anthony
He

Binford Minter and Harold Blach, Jr. in Florida state court.
initially

sought

m

$15,001.00

compensatory

damages,

plus

Defendants moved to

punitive damages in an unspecified amount.

dismiss the action for lack of personal jurisdiction in Florida.
The state court held a hearing and denied the motion to dismiss.
Frey

then

amended

compensatory
Based

on

diversity
U.S.

Complaint

and

$10,000,000.00

damages

the

Amended

jurisdiction

District

Defendants

his

Court

filed

claim

(ECF No.

8)

Court

(ECF No. 9).

Complaint,
existed
for

a motion

and

the
to

to

seek
in

punitive

Defendants
removed

Middle
dismiss

$15,001.00

action

District
for

damages.

concluded

the

failure

of
to

in

to

that
the

Florida.
state

a

and a motion to transfer the action to this
Frey filed a motion to remand (ECF No. 16),

and Defendants filed a motion for reconsideration of the state

27a

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 2 of 17

court's order denying their motion to dismiss (ECF No. 23).
Florida

U.S.

District

Judge

granted

Defendants'

the

transfer,

Frey

motion

The other motions remain pending.

filed

a motion

to

to

See Order (Sept.

transfer (ECF No. 9) the action to this Court.
19, 2018), ECF No. 39.

The

transfer

After

(ECF No. . 41),

asking that this action be transferred back to the U.S. District
Court for the Middle District of Florida if it is not remanded
to the Florida state court.
For the reasons
(ECF No.

16)

set

Frey's motion to remand

forth below,

and motion to transfer

(ECF No.

41)

are denied.

Defendants do not challenge personal jurisdiction in this Court,
and

their

court's

motion

order

personal

for

denying

reconsideration
their

jurisdiction

(ECF

motion
No.

of

to

23)

the

Florida

dismiss
is

for

moot.

state

lack

of

Finally,

Defendants' motion to dismiss for failure to state a claim (ECF
No. 8) is granted in part and denied in part.
DISCUSSION
I.

Frey's Motion to Remand (ECF No. 16)
If an action is removed to federal court, the plaintiff may

seek remand to state court based on a "defect" with the removal.
"One such defect,

28 U.S.C. § 1447(c).
litigating
right

to

Yusefzadeh

on

the

remove
v.

a

merits,
state

Nelson,

commonly referred to as

effectively
court

Mullins,

action
Riley

28a

&

waives

the

to

federal

the

defendant's

Scarborough,

court."
LLP,

365

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 3 of 17

F.3d 1244, 1246 (11th Cir. 2004)
this

defect

exists

here

(per curiam).

because

Frey argues that

Defendants

litigated

their

motion to dismiss for lack of personal jurisdiction in the state
But the "litigating on the merits" waiver of the right

court.

to remove can only occur if the right to remove is apparent and
the defendant takes substantial action in the state court case.
Litigation before the right to removal becomes apparent does not
waive the right to remove.
Here,
2017.

Frey

He

filed

sought

this

action

$15,001.00

in

in

state

compensatory

unspecified amount in punitive damages.
at

Defendants

18.

propounded

court

Compl.

on

damages
18,

jurisdictional

July

5,

and

an

ECF No.

requests

1-1
for

admission asking Frey to admit that he seeks damages in excess
of $75,000;

Frey denied those requests.

Notice of Removal Ex.

D, Pl.'s Resp. to Defs.' Jurisdictional Reqs. for Admis. SI SI 1-4,
ECF No.

1-1 at 48-50.

jurisdictional
amount

Thus,

discovery

the initial Complaint and Frey's

responses

did

not

suggest

that

the

in controversy exceeded the jurisdictional threshold of

$75,000.00.

So, when Defendants were litigating their motion to

dismiss in the state court, Defendants did not have any right to
remove

that

could be

until June 14,

2018,

amending

prayer

his

compensatory

damages

waived.

This

action

was

not

removable

when Frey filed a First Amended Complaint
for
and

damages

to

$10,000,000.00

29a

seek
in

$15,001.00

punitive

m

damages.

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 4 of 17

When the action became removable, Defendants did not waive their
right to remove—they filed their notice of removal on July 2,
2018,

within one year of the

commencement

of this

action and

within thirty days of receiving Frey's amended complaint.

For

these reasons, Frey's Motion to Remand (ECF No. 16) is denied.
II.

Frey's Motion to Transfer (ECF No. 41)
Frey asserts that this action should be transferred back to

the U.S. District Court for the Middle District of Florida under
28

U.S.C. §

analyzed

1404.

the

should be

Two

transfer

litigated in

Florida

factors

and

the Middle

District

Judges

concluded
District

that

thoroughly
this

case

of Georgia.1

The

Court finds no reason to transfer the action back to Florida.
Frey's motion to transfer (ECF No. 41) is denied.
III. Defendants' Motion to Dismiss (ECF No. 8)
A.

Choice of Law

Before the Court reaches the merits of Defendants'
to dismiss,
law applies.

motion

the Court must determine whether Florida or Georgia
Frey, who lives in Florida,

commenced this action

in Florida contesting the publication of an article in a Georgia
legal newspaper regarding a Georgia lawyer's comments on Frey's
actions during Georgia litigation.

Frey argues that Florida law

applies in this action and that his Amended Complaint states a
1 Before Plaintiff filed this action, he filed a substantially similar
action in the U.S. District Court for the Middle District of Florida
but voluntarily dismissed it after the Florida District Judge ordered
that the action be transferred to this Court.

30a

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 5 of 17

claim

under

Florida

law.

Defendant

argues

that

Georgia

law

applies and that Frey fails to state a claim under Georgia law.
"Federal
state's

courts

sitting

choice-of-law

Federated Mut.

Ins.

in

Boardman

rules."

Co.,

diversity

135

F.3d 750,

apply

the

Petroleum,

752

forum

Inc.

(11th Cir.

v.

1998).

But, "when a case is transferred from one forum to another, the
transferor court's choice-of-law rules apply to the transferred
case even after the transfer occurs."

Id.

Thus, the Court must

apply Florida's choice-of-law rules.
Florida resolves conflict-of-laws questions for tort cases
using

the

Restatement

"significant
(Second)

Specialty Paint Co.,
significant

relationships

of

Conflict

389 So.

relationships

lex loci delicti rule").

of

2d 999,

test

and

test"

set

Laws.
1001

(Fla.

rejecting

forth

Bishop
1980)
the

in
v.

the
Fla.

(adopting

"traditional

The goal is to determine which state

"has the most significant relationship to the occurrence and the
parties under the principles stated in § 6" of the Restatement.2
Id.

(quoting Restatement

(Am. Law Inst.

1971)).

(Second)

of Conflict of Laws § 145(1)

When "applying the principles of § 6 to

2 Section 6 states that "the factors relevant to the choice of
the
applicable rule of law include (a) the needs of the interstate and
international systems, (b) the relevant policies of the forum, (c) the
relevant policies of other interested states and the relative
interests of those states in the determination
of the particular
issue, (d) the protection of justified expectations, (e) the basic
policies underlying the particular field of law,
(f) certainty,
predictability and uniformity of result, and
(g) ease in
the
determination and application of the law to be applied." Restatement
(Second) of Conflict of Laws § 6(2) (Am. La. Inst. 1971).

31a

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 6 of 17

determine the law applicable to an issue," the courts consider
"(a)

the place where the injury occurred,

the

conduct

residence,
business

causing

the

nationality,
of

the

relationship,

injury

place

parties,

if

any,

occurred,

of
and

between

(b)

(c)

the

incorporation
(d)

the

the place where

the

parties

and

place
is

domicil,
place

where

of
the
Id.

centered."

(quoting Restatement (Second) of Conflict of Laws § 145

(Am. Law

Inst. 1971)); accord Michel v. NYP Holdings, Inc., 816 F.3d 686,
694

(11th Cir. 2016)

(applying Florida law).

These factors are

considered "according to their relative importance with respect
to

the

particular

issue."

389

at

Bishop,

So.2d

Michel,
In

1001).

816

F.3d

at

addition,

instructs that "[i]n an action for defamation,

694

the

(quoting

Restatement

the local law of

the state where the publication occurs determines the rights and
liabilities

of

defamation.

Restatement (Second) of Conflict of Laws § 149 (Am.

Law

Inst.

the

1971) .

parties,"

In

cases

except

of

in

cases

multistate

of

multistate

defamation,

the

Restatement instructs that the applicable law is "the local law
of the state which,
the

most

parties."
most

significant
Id.

with respect to the particular issue,
relationship

§ 150 (1) .

significant

to

relationship will

published in

that

occurrence

For a natural person,

state."

32a

and

the

"the state of

usually be the

the person was domiciled at the time,
of was

the

has

state where

if the matter complained

Id.

§ 150 (2) .

However,

a

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 7 of 17

state other than the state of the plaintiff's domicil may have
the most

significant

relationship

if

the

allegedly defamatory

statement related to the plaintiff's activity in the non-domicil
state

or

the

place

domicil state.

of

principal

circulation

was

in

the

non­

Id. § 150(2) cmt. e.

In this case,

the conduct causing the injury occurred in

Georgia when Minter made certain comments that were published in
the Daily Report,
circulated

in

a Georgia legal newspaper that is principally

Georgia.

Minter

is

a

Georgia

resident.

The

contentious relationship between Frey and Minter is centered in
Georgia,

where

garnishment

Frey's

article

online.

two

have

proceedings.

related to
Report

the

The

been

adversaries

allegedly

activity in Georgia

containing

Minter's

Frey, who lives in Florida,

in

defamatory

litigation.
remarks

was

several
statement

The

republished

received a copy of it via
Although

email from a former client who also lives in Florida.
Frey

is

only

licensed

to

licensed to practice
practice

office in Sarasota,

law

in

Daily

law

Florida,

in Georgia

and

Frey maintains

is

not

his

law

Florida and represents Florida citizens and

Georgia citizens in matters involving Georgia law or federal tax
law.
harmed

Frey alleges that the online publication of the article
him

partly in

in

Thus,

Florida.

Florida where

the

Frey lives

available via the internet.

33a

injury

occurred

at

least

and where the article was

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 8 of 17

The

Court

finds

that

(1)

the

"place

of

injury"

factor

weighs in favor of finding that Florida has the most significant
relationship

to

this

factor is neutral,

matter,

(3)

Georgia has

this

and

related to
legal

(4)

Frey's

newspaper

Weighing these
most

the

domicil

of

the

parties

the two other factors weigh in favor of

finding that
matter,

(2)

the most

the

significant

allegedly

relationship to

defamatory

statement

was

activity in Georgia and was published in a
with

its

factors,

significant

principal

the

Court

relationship

to

circulation

finds
this

that

in

Georgia.

Georgia

has

the

Accordingly,

matter.

Georgia law applies.
B.

Analysis

Defendants

argue

that

Frey's

Complaint

fails

to

state

a

claim for defamation under Georgia law.

"To survive a motion to

dismiss"

Procedure

under

Federal

Rule

complaint must

contain

sufficient

true,
face.
Bell

to
r n

'state

a

claim

Ashcroft v.

Atl.

Corp.

v.

to

Iq&al,
Twomhly,

of

Civil

factual matter,

relief

that

556 U.S.
550

12(b)(6),

is

662,

U.S.

544,

accepted

plausible

678

(2009)

570

"a

on

as
its

(quoting
The

(2007)).

complaint must include sufficient factual allegations "to raise
a right to relief above the speculative level."
U.S.

at

"raise

555.
a

In

other

reasonable

words,

expectation

the

that

evidence of" the plaintiff's claims.

34a

factual

allegations

discovery
Id.

at

Twombly,

556.

will
But

550

must

reveal
"Rule

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 9 of 17

12(b) (6)

does not permit dismissal of a well-pleaded complaint

simply because

'it strikes a savvy judge that actual proof of

those

is

improbable.

1295

(11th Cir.

facts

F.3d 1289,

t n

Watts v.

2007)

Fla.

Int'l

(quoting Twombly,

Univ.,

495

550 U.S.

at

556) .
Defendants argue that (1)
claim for defamation per se;

Frey's Complaint fails to state a
(2)

Frey's defamation claim fails

because Minter's statements were truthful; and
should

be

stricken

under

Georgia's

(3)

anti-SLAPP

Frey's claim

statute.

The

Court addresses each argument in turn.
1.
Frey's

The Allegedly Defamatory Statements
claims

are based on Minter's

statements

that were

reported in the Daily Report:
♦ Minter "said his efforts to garnish funds from a former
Aflac executive have been repeatedly stymied by another
lawyer who previously represented the executive."
♦ Minter "claims that he's being blocked from collecting [a
judgment for his client] by [Frey], who holds a years-old
judgment against the former Aflac executive [, Frey's
former client]."
♦ "According to Minter, [Frey] apparently has no intention
of collecting on the $300,000 judgment but is using it to
block anyone else's efforts to target his ex-client's
funds."
♦

I'm arguing that
it's
a
fraudulent
arrangement;
impermissible, unethical, and void,' said Minter. 'If
this is permissible,
any debtor could evade future
creditors by arranging, under confidential terms, for an
existing judgment debt to be assigned to his own
attorney. The debtor's attorney could keep doing legal
work to ensure the old judgment debt never gets paid, but

35a

Case 4:18-cv>00191-CDL Document 50 Filed 12/04/18 Page 10 of 17

then deny other would-be garnishors based on his
a prior judgment. t n
PI.'s Aff.

Ex.

B,

Greg Land,

'owing'

Garnishment Action Accuses Lawyer

of Using Unpaid Judgment to Block Debt Collection, Daily Report,
Aug.

19,

2016,

ECF No.

1-2 at 220-21.3

The article noted that

Frey assumed emeritus status with the Georgia bar in 2015.
2.

Id.

Defamation Per Se Claim

Frey contends that Minter's statements amount to defamation
per se.

The Georgia law distinction between defamation per se

and defamation is that the plaintiff is not required to prove
special

damages

to

recover

on a

defamation per

se

claim.

A

"private figure" plaintiff must prove four elements to prevail
on

a

defamation

defamatory

claim

statement

under

Georgia

concerning

law:

the

" (1)

plaintiff;

unprivileged communication to a third party;

(3)

defendant amounting at least to negligence; and (4)
or the
harm.

f n

(quoting

a

false
(2)

and
an

fault by the
special harm

'actionability of the statement irrespective of special
Mathis

v.

Restatement

Cannon,
(Second)

573
of

S. E. 2d
Torts

376,
§

558

380
(Am.

{Ga.

2002)

Law

Inst.

3 The article appears in many places in the record, including as an
attachment to Plaintiff's Complaint. See Compl. Ex. E, ECF No. 1-2 at
83-84. The Court cites the version that was attached to the Notice of
Removal as one of filings in the state court proceeding because it
contains the headline and the byline; the version attached to
Plaintiff's Complaint does not.
The body of the article is identical
to the article attached to Plaintiff's Complaint.

36a

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 11 of 17

1977))

To be defamation per se, "the words are those which are

recognized
extrinsic

as

injurious

proof.

on

Should

their

face—without

extrinsic

facts

the

be

establish the defamatory character of the words,
constitute slander,
Cottrell

v.

aid

of

necessary

to

the words may

but they do not constitute slander per se."

Smith,

788

S.E.2d

Bellemead, LLC v. Stoker,

772,

781

631 S.E.2d 693,

(Ga.

695

2016)

(quoting

(Ga. 2006)).

The three categories of defamation per se under Georgia law
are:

"(1)

Imputing

to

another

a

Charging a person with having
being

guilty

society;
to

his

of

[and]
trade,

therein[.]"
Minter

some
(3)

debasing

office,

or

a

crime

by

law;

(2)

contagious

disorder or with

act

which may

exclude

against

profession,
51-5-4(a).

to

punishable

some

Making charges

O.C.G.A. §

imputed

crime

him

another

calculated
Here,

and made

charges

from

in reference

to

Frey

him

injure
argues

him
that

calculated

to

injure him in his business.
In regard to imputing a crime,
se,

.

.

the

words

at

" [t]o constitute slander per

issue must

specific crime punishable by law.

charge

the

commission

of

a

Where the plain import of the

4 If the plaintiff is a public figure, then a more stringent standard
applies.
Mathis, 573 S.E.2d at 380.
Defendants summarily argue that
the more stringent "public figure" standard applies, but they did not
present a factual basis for this argument, and the Court cannot
conclude based on the present record that Frey should be considered a
public figure for purposes of this action.
See id. at 381 (explaining
the difference between public figures and private persons); accord
Atlanta Journal-Constitution v. Jewell, 555 S.E.2d 175, 183 (Ga. Ct.
App. 2001) (same).

37a

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 12 of 17

words spoken impute no criminal offense,

Dagel v. Lemcke, 537 S.E.2d 694,

meaning enlarged by innuendo."
696 (Ga. Ct. App. 2000)
v.

Multimedia

1999)).
in

(quoting Parks

(alterations in original)
Inc.,

Techs.,

they cannot have their

520 S.E.2d 517,

527

(Ga.

App.

The statement "must give 'the impression that the crime

question

is

being

charged,

couched

in

language

reasonably be expected to convey that meaning to
happened to

hear

the

Jeon,

487

607

S.E.2d 692,

as

might

any one who

Taylor v.

Calvary Baptist

(Ga. Ct. App. 2006)

(quoting Bullock

utterance.

Temple, 630 S.E.2d 604,
v.

Ct.

695

r tf

(Ga.

Ct.

App.

1997)).

"[V]ague

statements or even derogatory comments do not reach the point of
becoming slander per se when a person cannot reasonably conclude
from what is said that the comments are imputing a crime onto
Here, though Minter said he believed that

the plaintiff."

Id.

Frey

"fraudulent

entered

a

arrangement,"

his

words

did

not

accuse Frey of committing any specific crime punishable by law.
Frey thus fails to state a claim for defamation per se under the
"imputing a crime" category.
"As
office,
phase

for defamation
'[t]he

of

the

especially
the

rule

injurious

.

.

regard to

a

trade,

profession,

or

kind of aspersion necessary to come under this

particular

vocation.

in

of
to

slander
the

demands

." Cottrell,

or

per

se

plaintiff's

must

that

is

reputation because

of

qualifications

788 S.E.2d at 781-82

38a

be

of

one

plaintiff's

(alterations in

Case 4:18-cv-00191~CDL Document 50 Filed 12/04/18 Page 13 of 17

original)

(quoting Bellemead,

LLC,

631 S.E.2d at 695).

"[T]he

words must either be spoken of the plaintiff in connection with
his calling or they must be of such a nature such as to charge
him with some defect of character or lack of knowledge,

skill,

or capacity as necessarily to affect his competency successfully
to carry on his business,

trade,

(quoting Bellemead, LLC,

(alterations in original)
695) .

or profession."

Id.

at

782

631 S.E.2d at

though Minter's words disparage Frey's reputation

Here,

as a lawyer, it is undisputed that Frey had emeritus status with
the

Georgia

Bar when Minter's

were published—therefore,
See Ga.

State

Bar

R.

allegedly defamatory

statements

he was not permitted to practice law.

1-202(d)

(stating that

emeritus members

"shall not be privileged to practice law" except in certain pro
bono

cases).

injure

Frey

It
in

is
a

not

clear

profession

how Minter's
from

which

he

statements
was

could

essentially

retired.
Furthermore,

even

if

a

disparaging

statement

against

retired lawyer could be considered defamation per se,
imputing to a
single

. . .

occasion

a

"language

professional man ignorance or mistake on a

and not

accusing him of

lack of skill is not actionable per se."

general

ignorance

Cottrell,

or

788 S.E.2d

at 782 (quoting Kin Chun Chung v. JPMorgan Chase Bank, N.A., 975
F.

Supp.

2d

plaintiff

in

1333,
a

1349

single

(N.D.

Ga.

instance

39a

2013)).
was

guilty

"A
of

charge
a

that

mistake,

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 14 of 17

impropriety or other unprofessional conduct does not imply that
he

is

Supp.

generally unfit."
2d

occasion
former

at

1349) .

client

protect

Here,

structured

his

in

the

an

former

(quoting Kin Chun

Id.

Minter

assignment

improper

client

argued
of

way,

a

then

from other

Chung,

that

Frey

judgment
used

the

judgment

975

F.

on

one

against

his

judgment

to

This

holders.

charge does not imply that Frey was generally unfit to practice
law.

Frey thus fails to state a claim for defamation per se

under the "impugning plaintiff's business" category.
For the reasons
a

plead

claim

for

set

forth above,

defamation

per

Frey did not adequately
se,

so

damages

are

not

Instead, he must prove special damages caused by the

inferred.

alleged defamation.

The Court finds that Frey adequately pled

special

avoid

damages

to

dismissal

at

this

stage

of

the

proceedings.
Defendants' "Truth" Defense

3.

Defendant argues that even if Frey's Complaint adequately
alleged

special

defamation

claim

were truthful.
a

damages
is

caused by Minter's

still

barred

because

statements,
Minter's

appear

to

contend

that

Minter's

O.C.G.A. § 51-5-6.
statements

merely statements of opinion rather than actionable
of fact.

statements

Defendants are correct that truth, if proved, is

complete defense to a defamation claim.

Defendants

Frey's

But there is

were

statements

"no wholesale defamation exception for

40a

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 15 of 17

anything

that

might

be

labeled

'opinion.'

An

opinion

can

constitute actionable defamation if the opinion can reasonably
be interpreted,

according to the context of the entire writing

in which the opinion appears, to state or imply defamatory facts
about

the plaintiff

Gettner v.

that

Fitzgerald,

are

capable

of being proved

611 S.E.2d 149,

154

(Ga.

(quoting Cast v. Brittain, 589 S.E.2d 63, 64

false."

Ct. App.

2009)

(Ga. 2003)).

Here,

Frey's defamation claim is based on Minter's statement that Frey
structured
client

the

in an

assignment

of

a

judgment

improper way and then,

against

his

former

without any intention of

collecting the judgment, used the judgment to protect his former
client from other judgment holders.
imply

defamatory

proved false.

facts

about

Frey

These statements certainly
that

are

capable

of

being

Accordingly, the Court declines to dismiss Frey's

complaint on this ground at this time.
4.

Georgia's Anti-SLAPP Statute

Defendants

further

argue

that

stricken under Georgia's anti-SLAPP
public

participation)

statute,

Frey's

Complaint

should be

(strategic lawsuits against

O.C.G.A. §

A

9-11-11.1.

SLAPP

action "is a lawsuit intended to silence and intimidate critics
or

opponents

defense

until

Jubilee Dev.
809

by

S. E. 2d

overwhelming

they

Partners,
542,

544

abandon
LLC v.
(Ga.

Ct.

them

with

the

that

criticism

cost
or

of

a

opposition."

Strategic Jubilee Holdings,
App.

41a

2018)

legal

(quoting

LLC,

Rogers

v.

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 16 of 17

Dupree,

SLAPP

799 S.E.2d 1,

statute

rights

to

is

free

5

(Ga.

Ct.

App.

"Georgia's anti-

2017)).

intended to protect persons
speech

and

to

petition."

exercising their
Id.

The

statute

provides:
A claim for relief against a person or entity arising
from any act of such person or entity which could
reasonably be construed as an act in furtherance of
the person's or entity's right of petition or free
speech under the Constitution of the United States or
the Constitution of the State of Georgia in connection
with an issue of public interest or concern shall be
subject to a motion to strike unless the court
determines that the nonmoving party has established
that there is a probability that the nonmoving party
will prevail on the claim.
O.C.G.A. § 9-11-11.1(b)(1).
The Court assumes for purposes of the present motion that
Minter's statements are protected under the anti-SLAPP statute,
although

the

Court

is

not

convinced

that

Frey's

present

defamation action is the type of oppressive and speech-chilling
litigation that the anti-SLAPP statute was intended to address.
The present record viewed in the light most favorable to Frey
suggests that there is a bona fide action for defamation brought
in good faith and not as abusive litigation to chill Defendants'
constitutional rights.

Notably,

Frey filed this action in July

2017,

approximately two months after this Court concluded that

Frey

held

a

"legitimate,

unsatisfied

judgment

against"

former client that was "superior to Blach's judgment."

his

Blach v.

AFLAC, Inc., No. 4:15-MC-5, 2017 WL 1854675, at *1 (M.D. Ga. May

42a

Case 4:18-cv-00191-CDL Document 50 Filed 12/04/18 Page 17 of 17

8,

certified question answered sub nom.

2017),

Verson,

810

S.E.2d

129

(Ga.

2018).

Blach v.

Moreover,

Diaz-

Frey met

his

burden of showing that there is a probability he will prevail on
his

claim.

determining

Although
whether

the

Frey

Court

met

may

this

consider

burden,

evidence

neither

Defendants pointed to any evidence on this

issue.

Frey

in
nor

Therefore,

the Court is left with the Complaint and its exhibits, which if
taken as true and viewed in the light most

favorable to

Frey

establish a probability of success because Frey alleges facts to
support each element of a defamation claim.

For these reasons,

the Court declines to dismiss Frey's action under the anti-SLAPP
statute.
CONCLUSION
As discussed above,
and motion to transfer
motion
denying

Frey's motion to remand
(ECF No.

41)

for reconsideration of the
their

j urisdiction

motion

(ECF

No.

to
23)

is

are denied.

Florida

dismiss
moot.

(ECF No.

for

state
lack

Defendants'
court's
of

Defendants'

dismiss for failure to state a claim (ECF No.

8)

16)

order

personal
motion

to

is granted in

part and denied in part.
IT IS SO ORDERED, this 4th day of December, 2018.
S/Clay D. Land
CLAY D. LAND
CHIEF U.S. DISTRICT COURT JUDGE
MIDDLE DISTRICT OF GEORGIA

43a

USCA11 Case: 20-10331

D(^©ei^d: 03/22/2021

Page: 1 of 1

APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10331-DD

ROBERT J. FREY,
Plaintiff - Counter Defendant - Appellant,
versus
ANTHONY BINFORD MINTER,
Defendant - Counter Claimant - Appellee,
HAROLD BLACH, JR.,
Defendant - Appellee,
HUNTON ANDREWS KURTH LLP,
Respondent.

Appeal from the United States District Court
for the Middle District of Georgia
Before MARTIN, JORDAN, and ROSENBAUM, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by Robert J. Frey is DENIED.

ORD-41

44a

APPENDIX F

TITLE A. THE GENERAL PRINCIPLE

§ 145.

The General Principle

(1) The rights and liabilities of the parties with respeet
to an issue in tort are determined by the local law of
the state which, with respect to that Issue, has the most
significant relationship to the occurrence and the parties
under the principles stated in § 6.
(2) Contacts to he taken into aecoimt In applying the
principles of § 6 to determine the law applicable to an is­
sue include:
(a) the place where the injury occurred,
(b) the place where the conduct causing the injury
occurred,
(c) the domicil, residence, nationality, place of in­
corporation and place of husiness of the par­
ties, and
(d) the place where the relationship, if any, be­
tween the parties is centered.
These contacts arc to be evaluated according to their
relative importance with respect to the particular Issue.
See Appendix far Court Citation and Croat Seferenoea

414

45a

Ch. 7

WRONGS

§ 145

Comment on Subseetion (2):
e. Important contacts in determining state of most sig­
nificant relationship. In applying the principles of § 6 to deter­
mine the state of most significant relationship, the forum should
give consideration to the relevant policies of all potentially In­
terested states and the relevant interests of those states in the
decision of the particular issue. Those states which are most
likely to be interested are those which have one or more of the
following contacts with the occurrence and the parties. Some
of these contacts also figure prominently in the formulation of
the applicable rules of choice of law.
The place where injury occurred. In the case of personal
injuries or of injuries to tangible things, the place where the
injury occurred is a contact that, as to most issues, plays an im­
portant role in the selection of the state of the applicable law
(see §§ 146-147). This contact likewise plays an important
role in the selection of the state of the applicable law in the case
of other kinds of torts, provided that the injury occurred in a
single, clearly ascertainable, state. This is so for the reason
among others that persons who cause injury in a state should
not ordinarily escape liabilities imposed by the local law of that
state on account of the injury. So in the case of false imprison­
ment, the local law of the state where the plaintiff was imprison­
ed will usually be applied. Likewise, when a person in state X
writes a letter about the plaintiff which is received by a person
in state Y, the local law of Y, the state where the publication oc­
curred, will govern most issues involving the tort, unless the
contacts which some other state has with the occurrence and
the parties are sufficient to make that other state the state
which, with respect to the particular issue, has the most sig­
nificant relationship to the occurrence and the parties (see
§ 149).
Situations do arise, however, where the place of injury
will not play an important role in the selection of the state of
the applicable law. This will be so, for example, when the place
of injury can be said to be fortuitous or when for other reasons
it bears little relation to the occurrence and the parties with
respect to the particular issue (see § 146, Comments dr-e). This
will also be so when, such as in the case of fraud and misrepre­
sentation (see § 148), there may be little reason in logic or per­
suasiveness to say that one state rather than another is the place
of injury, or when, such as in the case of multistate defama­
tion (see § 150), injury has occurred in two or more states.
Situations may also arise where the defendant had little, or no,
See Appendix for Court Citation and Cron Beferenoea

419

46a

§ 145

CONFLICT OF LAWS

Ch. 7

reason to foresee that his act would result in injury in the par­
ticular state. Such lack of foreseeability on the part of the de­
fendant is a factor that will militate against selection of the
state of injury as the state of the applicable law* Indeed, ap­
plication of the local law of the state of injury in such circum­
stances might on occasion raise jurisdictional questions (see § 9,
Comment /).
The place where conduct occurred. When the injury oc­
curred in a single, clearly ascertainable state and when the con­
duct which caused the injury also occurred there, that state will
usually be the state of the applicable law with respect to most
issues involving the tort. This is particularly likely to be so with
respect to issues involving standards of conduct, since the stale
of conduct and injury will have a natural concern in the deter­
mination of such issues.
Choice of the applicable law becomes more difficult in situ­
ations where the defendant's conduct and the resulting injury
occurred in different states. When the injury occurred in two
or more states, or when the place of injury cannot be ascer­
tained or is fortuitous and, with respect to the particular issue,
bears little relation to the occurrence and the parties, the place
where the defendant’s conduct occurred will usually be given
particular weight in determining the state of the applicable law.
For example, the place where the conduct occurred is given
particular weight in the case of torts involving interference with
a marriage relationship (see § 154) or unfair competition (see
Comment f), since in the case of such torts there is often no one
clearly demonstrable place of injury. Likewise, when the pri­
mary purpose of the tori rule involved is to deter or punish mis­
conduct, the place where the conduct occurred has peculiar sig­
nificance (see Comment c). And the same is true when the
conduct was required or privileged by the local law of the state
where it took place (see § 163, Comment a).
The place where the defendant’s conduct occurred is of less
significance in situations where, such as in the case of multistate
defamation (see § 150), a potential defendant might choose to
conduct his activities in a state whose tort rules are favorable to
him.
The domicil, residence, nationality, place of incorporation
and place of business of the parties. These are all places of en­
during relationship to the parties. Their relative importance
varies with the nature of the interest affected. When the in­
terest affected is a personal one such as a person’s interest in
his reputation, or in his right of privacy or in the affections of
flee Appendix tat Coots citation and Cron Befereneee

420

47a

Ch. 7

WRONGS

§ 145

his wife, domicil, residence and nationality are of greater im­
portance than if the interest is a business or financial one, such
as in the case of unfair competition, interference with contrac­
tual relations or trade disparagement In these latter instances,
the place of business is the more important contact. At least
with respect to most issues, a corporation's principal place of
business is a more important contact than the place of Incorpora­
tion, and tills is particularly true in situations where the corpo­
ration does little., or no, business in the latter place.
These contacts are of importance in situations where in­
jury occurs in two or more states. So the place of the plaintiff’s
domicil, or on occasion his principal place of business, is the
single most important contact for determining the state of the
applicable law as to most issues In situations involving the multi­
state publication of matter that injures plaintiff’s reputation (see
§ 150) or causes him financial injury (see § 151) or invades his
right of privacy (see § 153).
In the case of other torts, the importance of these contacts
depends largely upon the extent to which they are grouped with
other contacts. The fact, for example, that one of the parties
is domiciled or does business In a given slate will usually carry
little weight of itself. On the other hand, the fact that the domi­
cil and place of business of all parties are grouped in a single
stale is an important factor to be considered in determining the
state of the applicable law. The state where these contacts are
grouped is particularly likely to be the state of the applicable
law if either the defendant's conduct or the plaintiff's injury
occurred there. This state may also be the state of the applica­
ble law when conduct and injury occurred In a place that Is for­
tuitous and bears little relation to the occurrence and the par­
ties (see § 146, Comments d-e).
The importance of those contacts will frequently depend up­
on the particular issue involved (see Comment d).
The place where the relationship, if any, between the par­
ties is centered. When there is a relationship between the plain­
tiff and the defendant and when the injury was caused by an act
done in the course of the relationship, the place where the rela­
tionship Is centered is another contact to be considered. So when
the plaintiff is injured while traveling on a train or while riding
as a guest passenger In an automobile, the state where his rela­
tionship to the railroad or to the driver of the automobile Is
centered may be the state of the applicable law. This is particu­
larly likely to be the case if other important contacts, such as
the place of injury or the place of conduct or the domicil or place
flea Appendix for Court Citation and Cross Beforences

421

48a

§ 145

CONFLICT OF LAWS

Ch. 7

of business of the parties, are also located in the state (see, for
example, § 146, Comment e and § 147, Comment e). On rare
occasions, the place where the relationship Is centered may he the
most important contact of all with respect to most issues. A
possible example Is where the plaintiff in state X purchases a
train ticket from the defendant to travel from one city in X to
another city in X, but is injured while the train is passing for a
short distance through state Y. Here X local law, rather than
the local law of Y, may he held to govern the rights and liabili­
ties of the parties.
Illustrations:
1. A and B are both domiciled in state X. A accepts
B‘s invitation to accompany him as his guest on an automobiie trip which is to start in X, go through several neighbor­
ing states and then end in X. B is insured against liability
by an X insurance company. While in state Y, a neighbor­
ing state, B negligently drives the automobile off the road
and A is injured. A brings suit to recover for his injuries
in a court of state Z. B would not be liable to A under Y
local law, since a Y statute provides that a guest passenger
shall have no right of action against his host for negli­
gently-caused injuries. B would be liable to A, however,
under X local law. The first question for the Z court to
determine is whether the interests of both X and Y would
be furthered by application of their respective local law
rules. This is a question that can only be determined in the
light of the respective purposes of these rules (see Comment
c). The interests of X would be furthered by application of
the X rule if, as is probably the case, one purpose of this
rule is to protect X passengers against negligent injury by
X hosts. Whether the interests of Y would be furthered
by application of the Y rule is more uncertain. If the on­
ly 'purpose of the Y rule is to protect Y insurance compa­
nies against collusion between host and guest, Y interests
would not be furthered by application of the Y rule since
an X insurance company is involved. In such a case, the
Z court should permit A to recover against B by applica­
tion of X local law. On the other hand, Y interests would
presumably be furthered by application of the Y rule if at
least one purpose of this rule is to protect hosts, while in Y,
against the ingratitude of their guests. Among the ques­
tions for the Z court to determine in such a case would be
whether X’s interest In the application of its rule outweighs
the countervailing interest of Y. Factors which would sup8oe Appaadlx for Court Citation and Oraas Befarencen

422

49a

Ch. 7

WRONGS

§ 145

port an affirmative answer to this question are that A and
B are both domiciled in X and that the relationship between
them was centered in X. Other factors which would sup­
port application of the X rule are that the trip began and
was to end in X and that it could be deemed fortuitous that
the accident occurred in Y rather than in some other state.
If it were to be found that a Y court would not have ap­
plied its rule to the facts of the present case, the arguments
for applying the X rule would be even stronger, for it would
then appear that, even in the eyes of the Y court, Y inter­
ests were not sufficiently involved to require application
of the Y rule (see § 8, Comment ft).
2. Same facts as in Illustration 1 except that the ac­
cident would not have occurred if the automobile had been
equipped with a safety device required by Y local law, but
not by the local law of X, and the question is whether B
should be held liable to A as a result. In this case, Y’s in­
terests would be furthered by application of its rule since Y
is clearly concerned with what are standards of acceptable
conduct in Y. Among the other factors which would sup­
port application by the Z court of the Y rule in order to
hold B liable are that conduct and Injury occurred in Y
and that Y has an obvious interest in the application of its
rule. If it were to be found that an X court would have
applied the Y rule to the facts of the present case, the argu­
ments for applying the Y rule would be even stronger. For
it would then appear that, even in the eyes of the X court,
X interests were not sufficiently involved to require ap­
plication of the relevant X rule (see § 8, Comment ft).
Comment:
f. The tort involved. The relative importance of the con­
tacts mentioned above varies somewhat with the nature of the
tort involved. Thus, the place of injury is of particular impor­
tance in the case of personal injuries and of injuries to tangible
things (see §§ 146-147). The same is true in the case of false
imprisonment and of malicious prosecution and abuse of process
(see § 155). On the other hand, the place of injury Is less sig­
nificant in the case of fraudulent misrepresentations (see § 148)
and of such unfair competition as consists of false advertising
and the misappropriation of trade values. The injury suffered
through false advertising is the loss of customers or of trade.
Such customers or trade will frequently be lost in two or more
states. The effect of the loss, which is pecuniary in its nature,
will normally be felt most severely at the plaintiff's headquarSee Appsndix for Court Citation and Cross a»fsr«ns«a

423

50a

§ 145

CONFLICT OF LAWS

Ch. 7

ters or principal place of business. But this place may have on­
ly a slight relationship to the defendant’s activities and to the
plaintiff’s loss of customers or trade. The situation is essen­
tially the same when misappropriation of the plaintiff’s trade
values is involved, except that the plaintiff may have suffered
no pecuniary loss but the defendant rather may have obtained
an unfair profit. For all these reasons, the place of injury does
not play so important a role for choice-of-law purposes in the
case of false advertising and the misappropriation of trade val­
ues as in the case of other kinds of torts. Instead, the principal
location of the defendant’s conduct is the contact that will usual­
ly be given the greatest weight in determining the state whose
local law determines the rights and liabilities that arise from
false advertising and the misappropriation of trade values.
The principal location of the defendant’s conduct is also the
single most important contact in the case of interference with a
marriage relationship (see § 154). In situations involving the
multistate publication of matter that injures the plaintiff’s repu­
tation (see § 150) or causes him financial injury (see § 151) or
invades his right of privacy (see § 153), the place of the plain­
tiff's domicil, or on occasion his principal place of business, is
the single most important contact for determining the state of
the applicable law.

Sea Appendix for Court Citation and Gi'oas ttaferenoea

424

51a

Appendix G
§ 146

CONFLICT OF LAWS

Ch. 7

TITLE B. PARTICULAR TORTS
Introductory Note: This Title deals with particular torts
for which it is possible to state rules of greater precision than
the general principle set forth in § 145.

APPENDIX H

§ 150.

Multistate Defamation
(1) The rights and liabilities tliat arise from defama­
tory matter in any one edition of a book or newspaper,
or any one broadcast over radio or television, exhibition
of a motion picture, or similar aggregate communication
are determined by tlic local law of the state which, with
respect to the particular issue, has the most significant
relationship to the occurrence aud the parties under the
principles stated in § 6.

(2) When a natural person claims that ho has been de­
famed by ait aggregate communication, the state of
most significant relationship will usually bo the state
where the person was domiciled at the time, if the mat­
ter complained of was published in that state.
(3) When a corporation, or other legal person, claims
that it has been defamed by an oggregato communica­
tion, the state of most significant relationship will usuEoa Appendix for Court Citation and Crone Beferencee

455
53a

§ 150

CONFLICT OF LAWS

Ch. 7

ally be the state where the corporation, or other legal
person, had Its principal place of business at the time,
if Hie matter eomplalncd of was published iu that state.
Comment;
a. Scope of section. The rule of this Section applies in
situations whore a defamatory statement in an aggregate com­
munication is published to persons other than the person de­
famed in two or more states. In other situations involving def­
amation the rule of § 149 is applicable.
b. Rationale. The rule of this Section calls for applica­
tion of the local law of the state selected pursuant to the pro­
visions of Subsection (2) and (3) unless, with respect to the
particular issue, some other stale has a more significant rela­
tionship to the occurrence and the parties. Whether there is
such another state should be determined in the light of the
choice-of-law principles staled in § 6. In large part the answer
will depend upon whether some slate has a greater Interest in
tlie determination of the particular issue than the state selected
pursuant to the provisions of Subsections (2) and (3). The
extent of the interest of each of the potentially interested states
should bo determined on the basis, among other things, of the
purpose sought to be achieved by their relevant local Jaw rules
and of the particular issue involved (see § 145, Comments c-d).
Particular issues arc discussed in Title C (§§ 156-174).
The rule furthers the choice-of-law values of certainty, pre­
dictability and uniformity of result and of ease in the deter­
mination and application of the applicable law (see § G).
Examples of issues in multislatc defamation are whether
a given communication is defamatory and, If so, whethsv it
constitutes libel or slander, whether proof of special damages
is essential to plaintiff’s recovery, what persons arc protected
by the law of defamation, what constitutes the publication of
defamatory matter, whether the publisher of defamatory mat­
ter is strictly liable or whether he is liable only if he published
the defamatory matter intentionally or negligently, the circum­
stances under which publication of defamatory matter is pro­
tected by an absolute or by a qualified privilege, whether truth
is a defense and what matters may be considered a partial de­
fense in mitigation of damages.
c. Single publication rule. As stated in g 577A of the Re­
statement of Torts (Second), a “single publication rule" is ap­
plied as a matter of tort law In cases where there is a single
aggregate communication to a large number of persons at one
See App&ndi* lor Court CitatloU And Cross Bcfsroucos

456

54a

WRONGS

Ch. 7

§ 150

time. In such Instances, the plaintiff has only one cause of ac­
tion for the publication. In his one action he will recover dam­
ages for all the haim that the communication has caused, or
may be expected to cause, him. Justification for the rule is to
be found in the necessity of protecting defendants and the courts
from the enormous number of suits which might be brought if
publication to each person reached by such an aggregate com­
munication could serve as the foundation for a new cause of
action.
A single publication rule also exists in choice-of-law. When
there has been publication in two or more states of an aggre­
gate communication of the sort described in the rule of this
Section, the forum, at least In situations that do not fall within
the scope of Comment d, will hold that the plaintiff has but one
cause of action for choice-of-law purposes and will apply the
local law of the state which, with respect to the particular is­
sue, has the most significant relationship to the occurrence and
the parties. Otherwise, the forum might be required to consult
and apply the local law of every state in which there was pub­
lication of the defamatory matter. This would mean in the
case of a nation-wide broadcast or of a publication of nation­
wide circulation that the forum would, at the least, have to con­
sult and apply the local law of fifty States and of the District
of Columbia.
The forum will determine the rights and liabilities of the
parties in accordance with the local law of the state selected
without regard to the question whether the courts of that state
follow a single or a multiple publication rule.
A plaintiff, who has a right of action under the local law of
tlie state selected by application of the rule of this Section, will
recover for the entire injury the communication has caused, or
may be expected to cause, him in all states in which the com­
munication is published. This is true even if the communica­
tion is published in one or more states under whose local law
the plaintiff has no right of action. A judgment rendered on
the merits for either the plaintiff or the defendant will under
normal principles of res judicata preclude further action be­
tween the parties with respect to the same communication. As
between States of the United States, a judgment rendered un­
der such circumstances on the merits will under full faith and
credit preclude the maintenance of any further action between
the parties in a sister State if the judgment has such a preclu­
sive effect in the Slate of rendition (see § 95).
See Appendix for Court Citation nnd Croti References
t

. a.

457

55a

§ 150

CONFLICT OF LAWS

Ch. 7

Illustration;
1. Suit is brought in state X to recover damages for
a statement contained in a broadcast transmitted from
state X and heard in states A, B, C, D and X. The state­
ment is defamatory under the local law of A. It is not de­
famatory under the local law of B, C, D and X. If the X
court would be led by its choice-of-law rule to apply the
local law of A, the court will award the plaintiff full re­
covery. This will be done even though A docs not follow a
single publication rule, and hence, if suit had been brought
in A, the A court would not have awarded plaintiff dam­
ages for the publications which occurred in B, C, D and
X.

Comment:
d. When special damages suffered m two or more states.
The rule of this Section under which all damages are determined
under a single law may not apply in situations where the plain­
tiff is claimed to have suffered one kind of special damages in
one state and another kind of special damages in a second state.
It is possible that in such situations the local law of each of these
states will be applied to determine the plaintiff’s right to recover
for the special damage he is alleged to have suffered within its
territory.
Illustration:
2. A, who is a practicing lawyer and who is domiciled
in state X, is seeking a position with a legislative committee
in state Y. The B newspaper, which is published in state Z
and is circulated in X, Y and Z, publishes a defamatory
story about A. A sues B for defamation alleging that pub­
lication of the story caused him (a) a general loss of reputa­
tion (b) the loss of a valuable client in X and (c) resulted
in his failure to obtain the position in Y, Under the rule
of this Section, A’s right to recover for his general loss of
reputation will be determined by the local law of X unless
some other state Is that of most significant relationship.
On the other hand, it may be that A’s right to recover for
the loss of his client will be determined in accordance with
X local law and that Y local law will be applied to deter­
mine whether A can recover for the loss of the position.
Comment:
e. Multistate communication involving natural person.
Rules of defamation are designed to protect a poison’s interest
in his reputation. When there has been publication in two or
Baa Appendix for Co art Citation and Oron Bofereaooa

4S8

56a

Ch. 7

WRONGS

§ 150

more states of an aggregate communication claimed to be defamatoiy, at least most issues involving the tort should be deter*
mined, subject to the possible limitation stated in Comment
by the local law of the state where the plaintiff has suffered the
greatest injury by reason of his loss of reputation. This will
usually be the state of the plaintiff’s domicil if the matter com­
plained of has there been published.
If the defamer’s act or acts of communication are done in
the state of the plaintiff’s domicil and if the matter claimed to
be defamatory is there published, the local law of this state will
usually be applied to determine most issues involving the tort
(see § 145, Comments d~e). The local law of the state of the
plaintiff’s domicil will also usually be so applied, even though
some or all of the defamer’s acts of communication were done in
another state, if there was publication in the state of plaintiffs
domicil and if the plaintiff is known only in this state and con­
sequently his reputation only suffered injury there. Determina­
tion of the state of the applicable law is more difficult when the
detainer’s act or acts of communication are done in a state other
than that of the plaintiff’s domicil and when the matter com­
plained of is published in the state of the plaintiff’s domicil and
In one or more other states to which the plaintiff has a substan­
tial relationship. In this last situation, the local law of the
state of the plaintiffs domicil will be applied unless, with re­
spect to the particular issue, one of the other states has a more
significant relationship to the occurrence and the parties.
A state, which is not the state of the plaintiffs domicil, may
be that of most significant relationship if it is the state where
the defamatory communication caused plaintiff the greatest in­
jury to his reputation. This may be so, for example, in situa­
tions where (a) the plaintiff is better known in this state than
in the state of his domicil, or (b) the matter claimed to be de­
famatory related to an activity of the plaintiff that is principal­
ly located in this state, or (c) the plaintiff suffered greater spe­
cial damages in this state than in the state of his domicil, or
(d) the place of principal circulation of the matter claimed to be
defamatory was in this state.
Other contacts that the forum will consider in determin­
ing which is the state of most significant relationship with re­
spect to the particular issue include (a) the state or states where
the defendant did his act or acts of communication, such as as­
sembling, printing and distributing a magazine or book and (b)
the state or states of the defendant’s domicil, incorporation or
organization and principal place of business.
See Appendix for Conrt Citation und Cross References

459

57a

§ 150

CONFLICT OF LAWS

Ch. 7

/. Multxstaie communication involving corporation or other
legal person. What is said in Comment e about multistate com­
munications involving natural persons is in general applicable
to colorations and other legal persons. Legal persons, how­
ever, have no domicil (see § 11, Comment Z). In their case the
principal place of business is the most important contact in the
determination of which is the state of most significant relation­
ship and hence that of the applicable law. A legal person’s prin­
cipal place of business is the place where its reputation will
usually be most grievously affected. Other contacts to be con­
sidered are the state of incorporation of a corporation or the
state of organization of other sorts of legal persons, such as
joint stock associations and business trusts. Less weight will be
given to these latter contacts in the determination of the stale
of most significant relationship than to the principal place of
business of the legal person Involved.
If the defamer’s act or acts of communication are done in
the state of the plaintiff’s principal place of business and if the
matter claimed to be defamatory is there published, the local
law of this slate will usually be applied to determine most issues
involving the tort (see § 145, Comments d-e). The local law
of the slate of plaintiffs principal place of business will also
usually be applied, even though some or all of the defamer’s acts
of communication were done in another state, if all of the plain­
tiffs business is carried on in the former state. Determination
of which is the state of the applicable law is more difficult when
the defamer’s act or acts of communication are done in a state
other than that of plaintiffs principal place of business and
when the matter complained of is published in the state of the
plaintiffs principal place of business and in one or more other
states to which the plaintiff has a substantial relationship. In
this last situation, the local law of the state of the plaintiffs prin­
cipal place of business will be applied unless, with respect to the
particular issue, some other slate has a more significant rela­
tionship to the occurrence and the parties.
A state, which is not the state of the plaintiffs principal
place of business, may be that of most significant relationship
with respect to the particular issue if it is the state where the
defamatory communication caused plaintiff the greatest injury
to its reputation. This may be so, for example, in situations
where (a) the plaintiff is better known in this state than in the
stale of Hs principal place of business, as might be the case if
the plaintiff does approximately the same amount of business in
this state as it does in the state of its principal business and this
state is the slate of the plaintiffs incorporation or organization,
See Appendix for Court Citation and Cross References

460

58a

Cb. 7

WRONGS

§ 150

or (b) the matter claimed to be defamatory related to an ac­
tivity of the plaintiff that is principally located in this state, or
(c) the plaintiff suffered greater special damages In this state
than in the stale of its principal place of business, or (d) the
place of principal circulation of the matter claimed to be de­
famatory was in this state.
Other contacts that the forum will consider in determin­
ing which is the state of most significant relationship with re­
spect to the particular issue include (a) the state or stales where
the defendant did his act or acts of communication, such as as­
sembling, printing and distributing a magazine or book and (b)
the state or states of the defendant's domicil, incorporation or
organization and principal place of business.

B8e Appenou; icr voters virnvos ana wtum »«reraaces

461

59a

